                                                          IG-01-042




AUDIT
                             SAFETY OF LIFTING DEVICES AND
REPORT                     EQUIPMENT AT STENNIS SPACE CENTER

                                     September 28, 2001




                           OFFICE OF INSPECTOR GENERAL

National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for Audits at
(202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Audits. Ideas and requests can also be mailed to:

       Assistant Inspector General for Audits
       Code W
       NASA Headquarters
       Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement contact the NASA Hotline at (800) 424-9183,
(800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form; or write to the
NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC 20026.
The identity of each writer and caller can be kept confidential, upon request, to the extent
permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
www.hq.nasa.gov/office/oig/hq/audits.html.



Acronyms

CMMS           Computerized Maintenance Management System
DCMA           Defense Contract Management Agency
FMEA           Failure Mode and Effects Analysis
FOSC           Facility Operations Support Contractor
LDE            Lifting Devices and Equipment
MSS            Mississippi Space Services
NACB           North American Crane Bureau
NSS/GO         NASA Safety Standard/Ground Operations
OI             Operating Instruction
PM             Preventive Maintenance
S&MA           Safety and Mission Assurance
SPG            Stennis Procedures and Guidelines
W                                                                               September 28, 2001


TO:              A/Administrator

FROM:            W/Inspector General

SUBJECT:         INFORMATION: Safety of Lifting Devices and Equipment
                 at Stennis Space Center
                 Report Number IG-01-042

The NASA Office of Inspector General has completed an audit of Safety of Lifting
Devices and Equipment (LDE)1 at the John C. Stennis Space Center (Stennis). As early
as 1997, the NASA Office of Safety and Mission Assurance (S&MA) began reporting
safety deficiencies with the Stennis LDE program. Since then, other parties, both internal
and external to Stennis, have reported safety deficiencies within the LDE program. Our
audit confirmed many of those issues and focused on five major areas of concern.
Specifically, we found that Stennis did not safely perform critical lifts,2 operators and
riggers were not properly trained and certified, operators used cranes with safety
deficiencies, and crane maintenance and inspections were inadequate. Despite being
advised of many of those conditions in mishap reports, independent inspections, and
internal assessments, significant deficiencies in LDE management at Stennis continued to
exist. As a result, during 1999-2000, Stennis removed 16 critical lift cranes from service
and reported two lifting mishaps3 that resulted in equipment and facility damages with
estimated costs of more than $550,000.

Although Stennis has made some improvements in the safety of its LDE program,
additional management emphasis and improvements are needed. Unless Stennis makes
those improvements, the potential exists for harm to personnel and assets essential to
NASA's space propulsion program and for future monetary losses.


1
  LDE include overhead and mobile cranes, derricks, hoists, and hoist-supported personnel lifting devices.
2
  Lifts of high-dollar items such as NASA’s space hardware, one-of-a-kind test articles, major facility
components, or personnel are considered critical lifts.
3
  The mishaps occurred on June 23, 1999, and November 5, 2000, during use of the B-Test Stand main
derrick. The 1999 mishap occurred during a Boeing lift of a commercial engine. The main 200-ton hook
traveled upward until the lower sheave block contacted the upper-fixed sheave block. The two-blocking
incident resulted in approximately $350,000 in damages. The 2000 mishap occurred during a Lockheed-
Martin lift when the rigging for a man-lift failed. The man-lift was destroyed after falling approximately
80 feet. The mishap resulted in more than $200,000 in damages.
                                                                                                      2

Background

NASA established safety requirements for the design, testing, inspection, personnel
certification, maintenance, and use of LDE at NASA Centers in the NASA Safety
Standard/Ground Operations (NSS/GO) 1740.9B, "Safety Standard for LDE," dated
November 1991.4 Compliance with the standard is mandatory for all NASA-owned and
contractor-supplied equipment used in support of Agency operations at NASA
installations.

The NASA S&MA Office performs process verification reviews at the Centers to
determine compliance with the LDE safety standard. Headquarters’ S&MA officials
reported recurring deficiencies in the Stennis LDE program during process verification
reviews completed in 1997 and 1999 and a follow-up review in 2000. In response to the
1999 review, Stennis appointed an LDE program manager and hired an independent
consultant to inspect 18 critical lift cranes. Subsequent to the independent inspection and
the 2000 process verification follow-up review, Stennis removed 16 of the cranes from
service. Stennis returned 14 of the cranes to service after completing corrective action
and elected to remove the remaining 2 cranes from service indefinitely.

Recommendations

We recommended that Stennis take the necessary actions to comply with Agency safety
standards for LDE operations. Our recommendations specifically addressed critical
lifting operations, operator and rigger training and certifications, preventive maintenance,
and inspections. We also recommended that Stennis increase Government surveillance
of LDE operations and implement a system to track and resolve previously reported
findings and recommendations related to crane operations and equipment deficiencies.
Finally, we recommended that Stennis prohibit the use of cranes with safety deficiencies.
These actions will help ensure that Stennis and its contractors do not compromise the
safety of personnel and will reduce the overall risk of loss or damage to flight hardware,
equipment, and facilities that are critical to NASA's propulsion programs.

Management’s Response and OIG Evaluation

Stennis concurred with 13 of the recommendations and partially concurred with 3
recommendations for which it proposed alternative corrective actions. Pending receipt of
additional information, we consider management’s planned actions responsive for all 16
recommendations. The corrective actions should result in the LDE program at Stennis




4
    NASA is revising NSS/GO-1740.9B and will finalize the revised document as NASA Standard 8719.9.
                                                                                         3

being operated in a safe manner and in compliance with Agency standards. We have
requested that Stennis provide us with additional documentation regarding the proposed
corrective actions including additional details and planned completion dates.

Details on the status of the recommendations are in the recommendations section of the
report.



[original signed by]
Roberta L. Gross

Enclosure
Final Report on Audit of Safety of Lifting Devices and Equipment at Stennis Space
Center
W                                                                   September 28, 2001


TO:            AA/Acting Director, John C. Stennis Space Center
               Q/Associate Administrator for Safety and Mission Assurance

FROM:          W/Assistant Inspector General for Audits

SUBJECT:       Final Report on Safety of Lifting Devices and Equipment at Stennis Space
               Center
               Assignment Number A-00-048-00
               Report Number IG-01-042

Enclosed please find the subject final report. Please refer to the Executive Summary for
the overall audit results. Our evaluation of your response is incorporated into the body of
the report. Pending receipt of additional information, we consider management’s
proposed actions responsive for each of the report recommendations. We request that
management provide additional comments and planned completion dates for each
recommendation by November 27, 2001. The recommendations will remain open for
reporting purposes until corrective actions are complete. Please notify us when actions
have been completed on the recommendations, including the extent of testing performed
to ensure corrective actions are effective. The final report distribution is in Appendix E.

We appreciate the courtesies extended to the audit staff. If you have questions
concerning the report, please contact Mr. Kevin Carson, Deputy Assistant Inspector
General for Audits, at (301) 286-0498, or Ms. Sandy Massey, Program Director, Safety
and Technology Audits, at (321) 867-4057.



[original signed by]
Alan J. Lamoreaux

Enclosure
                                              2

cc:
AI/Associate Deputy Administrator
B/Acting Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Associate Administrator for Procurement
JM/Director, Management Assessment Division
M/Associate Administrator for Space Flight
      SAFETY OF LIFTING DEVICES
AND EQUIPMENT AT STENNIS SPACE CENTER
Contents

Executive Summary, i

Introduction, 1

Findings and Recommendations, 2

     Finding A. Critical Lift Safety, 2

     Finding B. Training and Certifying Operators and Riggers, 10

     Finding C. Crane Operation Safety, 16

     Finding D. Preventive Maintenance for Cranes, 21

     Finding E. Wire Rope Inspections, 28

Appendix A - Objectives, Scope, and Methodology, 31

Appendix B - Summary of Process Verification Reviews, 33

Appendix C - North American Crane Bureau Inspection Results, 34

Appendix D - Management’s Response, 35

Appendix E - Report Distribution, 39
                              NASA Office of Inspector General

IG-01-042                                                                             September 28, 2001
 A-00-48-00

                               Safety of Lifting Devices and
                             Equipment at Stennis Space Center


                                         Executive Summary

Background. Three major contractors at Stennis operate and/or maintain LDE for
NASA. Mississippi Space Services (MSS)5 is the Center's facility operating services
contractor and has responsibility for the inspection and maintenance of all LDE on site.
MSS also operates some LDE and is responsible for training and certifying all LDE
operators. Lockheed Martin Space Operations-Stennis Programs (Lockheed-Martin) is
the test and technical support services contractor that performs lifts of experimental
engines and commercial space flight hardware to support operational testing. The
Boeing Company's-Rocketdyne Propulsion and Power (Boeing) is the propulsion test
contractor responsible for lifting, testing, and certifying Space Shuttle main engines for
flight.

The NSS/GO 1740.9B contains the minimum safety requirements for the design, testing,
inspection, personnel certification, maintenance, and use of LDE at NASA Centers.
Compliance with NSS/GO 1740.9B safety requirements is mandatory for all NASA-
owned and contractor-supplied equipment used in support of Agency operations at
NASA installations. Center safety organizations are responsible for implementing and
enforcing the standard.

Objectives. The overall audit objective was to determine whether Stennis and its
contractors properly managed the safety of the LDE program. Specifically, we
determined whether:

         •    Stennis safely performed critical lifts,
         •    crane operators were properly trained and certified,
         •    personnel operated cranes in a safe manner,
         •    MSS complied with maintenance requirements, and
         •    MSS performed adequate wire rope6 inspections.

Appendix A contains further details on the audit objectives, scope, and methodology.

5
  MSS is a joint venture of Computer Sciences Corporation and the IT Group, Inc.
6
  A wire rope is a number of multi-wired strands that are wrapped around a core member. LDE primarily
rely on wire ropes to lift and suspend their loads; thus, the reliability of wire ropes is critical to successful
lifts. If the strength of a wire rope is compromised, safety of the lift is also compromised.
Results of Audit. Stennis and its three major contractors did not properly manage LDE
program safety. Specifically, (1) Stennis did not safely perform critical lifts (Finding A),
(2) operators and riggers were not properly trained and certified (Finding B),
(3) operators used cranes with safety deficiencies (Finding C), (4) crane maintenance was
inadequate (Finding D), and (5) wire rope inspections were inadequate (Finding E).
Stennis had been advised of many of these conditions in mishap reports, independent
inspections, and internal assessments; yet, significant deficiencies in LDE management
continued to exist. As a result, Stennis removed 16 critical lift cranes from service
during 1999-2000. During that same period, Stennis also reported two lifting mishaps
that resulted in equipment and facility damages with estimated costs of more than
$550,000.

Stennis made some improvements in LDE program safety in 2000. Specifically, the
Center designated an LDE program manager, drafted an LDE program plan, and made
needed repairs on some of its cranes. Despite those positive steps, the LDE program
requires additional improvements. Unless Stennis makes additional improvements, the
potential exists for harm to personnel and assets that are essential to NASA's space
propulsion program and for future monetary losses.

Recommendations. We recommended that Stennis take the necessary actions to comply
with Agency safety standards for critical lifting operations, operator and rigger training
and certifications, maintenance, and inspections. Stennis should also revise its safety
procedures and guidelines to include requirements for critical lifting operations that are
unique to the Center. In addition, management should request increased Government
surveillance of crane operations and implement a system to track and resolve previously
reported findings and recommendations related to crane operations and equipment
deficiencies. Finally, Stennis should prohibit the use of cranes with safety deficiencies.

Management’s Response. Management concurred or partially concurred with the
report’s 16 recommendations. Management proposed alternative corrective actions for
those recommendations for which it partially concurred. Management’s planned actions
for all the recommendations are responsive. We request additional information on the
proposed corrective actions, including additional details and planned completion dates
(see the respective recommendations in the Findings section of the report). The complete
text of the response is in Appendix D.




                                             ii
Introduction

The NASA Office of S&MA, located at Headquarters, performs process verification
reviews at each Center on a cyclical basis. The purpose of the reviews is to assess the
effectiveness and efficiency of S&MA processes and management practices implemented
at each Center. The Office of S&MA determines the stability and capability of each
Center's safety, reliability, and quality assurance functions based on the results of the
process verification reviews.

NASA S&MA officials performed process verification reviews at Stennis in 1997 and
1999 and performed a follow-up review in 2000. The reports contained recurring
findings regarding LDE. Appendix B summarizes the results of the three reviews.

As a result of the 1999 process verification review, Stennis appointed a safety official as
the LDE program manager.7 To get an overview of the status of all LDE, the program
manager contracted with the North American Crane Bureau (NACB) to perform an
inspection of 18 cranes8 (of which 16 were classified as critical lift) for compliance with
general industry standards. The LDE program manager and an MSS safety official
(concurrent with the NACB) inspected the same 18 cranes for compliance with NASA
safety standards. In May 2000, both the NACB and the LDE program manager issued
reports detailing the inspection results. Appendix C summarizes the NACB's findings.

The Stennis LDE program manager's May 2000 inspection report stated that none of the
18 inspected cranes complied with industry standards or NSS/GO-1740.9B. The report
cited multiple deficiencies across the Center including inadequate maintenance, lack of
documentation, and failure to establish and maintain a system for supporting LDE. The
report concluded that, "some of the equipment inspected indicates the potential for
catastrophic failures that could dramatically impact current and future test programs."

In June 2000, the NASA S&MA Office conducted a follow-up review and again reported
serious examples of safety noncompliance and management shortcomings with LDE. As
a result, Stennis removed the 16 critical lift cranes from service. Stennis subsequently
completed corrective actions on 14 cranes and returned them to service. There was no
current program requirement for the remaining two cranes. Stennis continues to address
other concerns identified by S&MA officials in the process verification reviews.




7
  In July 2000, Stennis reassigned the LDE program manager responsibility to the Center Operations
Directorate.
8
  The 18 cranes selected for review represented about 20 percent of the total LDE inventory at Stennis.
Findings and Recommendations

Finding A. Critical Lift Safety

Lockheed-Martin, MSS, and Boeing did not safely perform critical lifts. Specifically,
contractors routinely conducted critical lifts using noncritical lift procedures. In addition,
Stennis had not completed hazard analyses and markings for its critical lift cranes or its
inventory of slings.9 Critical lifts were unsafe because Stennis had not (1) complied with
the critical lift requirements of NSS/GO-1740.9B, (2) established critical lift
requirements for its Center-unique lifting operations, or (3) provided adequate safety
surveillance for critical lifts. As a result, Stennis and its contractors compromised
personnel safety, destroyed Government property, and increased the overall risk of loss
or damage to equipment and facilities.

Safety Requirements for Performing Critical Lifts

NASA Requirements. NSS/GO-1740.9B, paragraph 101(c)(1), describes critical lifts as
those that are:
                  . . . special, high dollar items, such as spacecraft, one-of-a-kind articles,
                  or major facility components, etc., whose loss would have serious
                  programmatic impact. Critical lifts also include operations with special
                  personnel and equipment safety concerns beyond normal lifting
                  hazards. Each installation or program shall develop a process to
                  identify critical lifting operations and lifting devices/equipment that
                  must meet critical lift requirements. The results of the process shall be
                  documented and approved, as a minimum, by the installation NASA
                  Safety Director. In addition, specific written procedures shall be
                  prepared and followed for all critical lifts, and individuals with a
                  designated safety responsibility (NASA or Contractor) shall be present
                  to monitor critical lift operations for compliance with this document.

Stennis Requirements. Stennis Procedures and Guidelines (SPG) 8715.1, "Stennis
Space Center Safety and Health Procedures and Guidelines," January 27, 1998,
establishes procedures and guidelines for all NASA operations and basic safety
requirements for Stennis contractors. The SPG states that Stennis lifting operations are
often one-of-a-kind and special and involve high-dollar items that contain hazardous
materials or have special safety requirements.

Contractor Performance of Critical Lifts

Lockheed-Martin, MSS, and Boeing routinely performed lifts of personnel and assets
requiring special lifting procedures. However, the contractors did not follow safety
requirements designed to ensure that critical and/or hazardous lifting operations were
performed in the safest possible manner.

9
 A sling is a device used to securely hold the object to be hoisted. Slings can be constructed of wire rope,
alloy steel chain, metal mesh, or natural or synthetic fiber.


                                                       2
Lockheed-Martin. Lockheed-Martin may have avoided a serious mishap that resulted in
property damage and equipment loss had it complied with NASA's critical lift
requirements. On November 5, 2000, Lockheed-Martin used the main derrick to raise a
man-lift10 from the eleventh to the sixteenth level of the B-Test Stand.11 Lockheed-
Martin operated the crane and rigged the man-lift. According to the mishap investigation
team, the rigging failed because Lockheed-Martin used undersized slings and an
improper rigging configuration, and as a result, the man-lift fell about 80 feet to the sixth
level. Lockheed-Martin had successfully lifted the man-lift the day before the mishap
and twice the day of the mishap using the same improper slings and configuration. Each
of those lifts had an extremely high risk of catastrophic failure and potential for loss of
life and property.

The man-lift, which will cost NASA about $130,000 to replace, was completely
destroyed, and the test stand sustained an estimated $40,000 in damage. NASA incurred
additional costs of about $33,000 for other incidental expenses such as environmental
cleanup, removal of the destroyed man-lift, and minor repairs to a damaged Government
vehicle.12 Figures 1 and 2 show the destroyed man-lift on the sixth level of the test stand.




     Figure 1. View of destroyed man-lift from the   Figure 2. Overhead view of destroyed man-lift
               sixth level

Although the mishap caused no personnel injuries, the risk of injury or death was high.
Only minutes before the mishap, three employees were in the area where the man-lift
landed. An investigation team recommended that Stennis review its lifting program and
equipment for compliance with the NSS/GO and SPG and coordinate lifts with respective
safety offices. The mishap clearly shows the importance of properly classifying critical
lifts in accordance with safety standards. Lockheed-Martin may have prevented the
mishap if the company had complied with NASA's critical lift requirements.



10
   A man-lift is a type of mobile equipment designed to lift personnel to work on elevated structures and
equipment.
11
   The B-Test Stand is a 17-story structure where propulsion systems such as rocket engines are mounted
for static testing.
12
   Stennis requested that Lockheed-Martin reimburse NASA approximately $132,000 for mishap damages,
to include market value for the man-lift, rental costs for a temporary man-lift, test stand damages, and
incidental costs such as environmental clean up and removal of debris.


                                                     3
MSS. MSS also did not properly classify critical lifts or follow NASA or MSS
procedures when those lifts met the NSS/GO critical lift requirements. For example, on
November 2, 2000, an operator lifted workers on the B-Test Stand using a mobile crane
with an attached personnel basket. Although NSS/GO-1740.9B and MSS S&MA
instructions require contractors to perform personnel lifts using critical lift procedures,
MSS did not properly classify the lift as critical. MSS also did not prepare specific
written lift procedures or require monitoring of lifts by NASA or contractor safety
personnel. Although MSS was aware of the NASA requirements and had established
internal procedures, it did not properly classify or perform personnel lifts.

Boeing. Boeing did not follow required safety procedures for its critical lifts. From
September 1, 2000, through February 28, 2001, Boeing classified 26 Space Shuttle main
engines and/or engine component lifts as critical and used a qualified move director13 or
move conductor14 when transporting and lifting engines or engine components. The
NSS/GO requires that designated safety representatives be present during critical lifts or
that the contractor receives NASA approval, in the form of a waiver, for an exception to
this practice. Generally, neither NASA nor Boeing safety personnel were present for
these lifts. Further, the move directors and conductors were not safety representatives,
although they had received safety-related training. Boeing also had not submitted a
waiver to obtain the Agency's approval for deviation of the requirement to have safety
representatives present. Consequently, NASA had no assurance that Boeing
accomplished the engine lifts in the safest possible manner.

Hazard Analyses, Special Markings, and Inventories for Critical Lift Equipment

Stennis did not comply with the NSS/GO or the SPG requirements for hazard analyses,15
special markings, and inventories for critical lift equipment. The NACB, NASA Office
of S&MA, and the 2000 mishap investigation team each addressed noncompliance with
at least one of those requirements. However, as of June 2001, Stennis had not completed
hazard analyses or markings for its critical lift cranes or its inventory of slings.

Hazard Analyses. Stennis did not complete the required hazard analyses and the failure
mode and effects analyses (FMEA),16 as applicable, for its critical lift cranes. Therefore,
Stennis accepted uncalculated risks when performing critical lifts that could have caused
harm to personnel and mission-critical programs.



13
   A move director is a contractor employee who has ultimate responsibility for overseeing Space Shuttle
main engine lifting and transporting operations.
14
   A move conductor is a contractor employee who has ultimate responsibility for overseeing transport and
lifting operations for certain Space Shuttle main engine components (that is, nozzles and pump
assemblies.)
15
   A hazard analysis is the identification and evaluation of potential and existing hazards and the
recommended mitigation for the hazardous sources identified.
16
   An FMEA is a systematic, methodical analysis performed to identify and document all identifiable
failure modes at a prescribed level and to specify the resultant effect of the modes of failure. FMEA’s are a
part of risk analyses; however, a hazard analysis does not have to include an FMEA to be complete.


                                                     4
NSS/GO-1740.9B and SPG 8715.1 require a hazard analysis for all critical lift cranes to
identify potential sources of danger and recommend appropriate resolution. In addition, a
system of risk acceptance is required for hazards that cannot be eliminated. Stennis must
perform and document a hazard analysis as part of the initial crane certification process
and update the analysis to reflect changes in operation and/or crane configuration.
Cranes used to lift personnel require both a hazard analysis and an FMEA.

In June 1999, a mishap occurred at the B-Test Stand when Boeing lifted a commercial
engine using the main derrick. Stennis’ mishap investigation team issued a written report
on the mishap to Stennis management in September 1999. The mishap report identified
that Stennis had not performed a design hazard analysis on the derrick modifications
completed in 1993/94. The team recommended that Stennis perform a hazard analysis on
the entire derrick system. Stennis may have identified and mitigated the risks associated
with the mishap if it had performed the required hazard analysis.

In 2000, two NASA internal reports addressed the need for hazard analyses. Specifically,
in May, the Stennis S&MA Office reported there were no hazard analyses for the critical
lift cranes.17 In June, the NASA Headquarters S&MA Office recommended that Stennis
perform a hazard analysis prior to any critical lift operation.18 As of May 2001, Stennis
still had not performed the hazard analyses and FMEA on critical lift cranes as required
by NSS/GO-1740.9B and SPG 8715.1.

Critical Lift Markings. In May 2000, both the NACB and Stennis S&MA Office
provided reports to Stennis management that identified Stennis’ noncompliance with
NSS/GO-1740.9B and SPG 8715.1 regarding crane markings for load bearing capability,
warnings, and critical lift designation. The NSS/GO and SPG require Stennis to
conspicuously mark cranes so that they are readily identified for critical lifts.

We observed critical lift cranes that were not properly marked. Without proper markings,
crane operators and safety personnel could not be assured that equipment was inspected,
tested, and configured to perform critical lift operations. Use of improperly marked and
undesignated cranes to perform critical lifts could result in operators using under-rated or
substandard cranes to perform critical operations that could, upon failure, harm personnel
or damage assets, equipment, or facilities.

LDE Inventory. The NASA Headquarters Office of S&MA reported in its 1997 and
1999 process verification reviews and its 2000 follow-up process verification review that
Stennis did not maintain its LDE inventory.19 The reports showed that the NASA S&MA
Office provided Stennis funding to complete an inventory in 1993, but due to a lack of
resources, the Center was unable to keep the inventory current.

17
   The Stennis S&MA Office issued a report “Initial Inspection of Critical Lifting Devices at Stennis Space
Center,” on May 25, 2000.
18
   The NASA Headquarters S&MA Office provided Stennis its “Final Report - Process Verification
Follow-up at Stennis Space Center June 5-9, 2000,” on June 30, 2000.
19
   The LDE inventory includes lifting equipment and all types of slings used to perform both critical and
noncritical lifts.


                                                     5
Stennis updated its crane inventory in 2000; however, the inventory did not include
slings. Therefore, the Center was not assured that its slings had the necessary design
features, maintenance, inspection, and testing required for critical lift certification as
required by NSS/GO-1740.9B.

Stennis’ 2000 aerial man-lift mishap report stated that Lockheed-Martin used slings that
did not conform to the load rating requirements of NSS/GO-1740.9B and SPG 8715.1
and that were undersized for the lift. Had Stennis inventoried and properly documented
its rigging equipment, the slings used in the mishap would have been load tested20 and
marked with the load test value as prescribed by the NSS/GO and SPG. The synthetic
slings used in the mishap were marked with the manufacturer’s load rating. However,
the load test value assigned to the slings should have been reduced by 50 percent.21
Lockheed-Martin did not perform a load test with the slings and, as a result, the slings did
not reflect the reduced lifting capacity. Had Stennis maintained its LDE inventory and
tested and marked the slings with the prescribed load rating, rigging personnel may have
selected proper slings for the lift.

Agency Requirements and Oversight for Critical Lift Operations

Stennis-Unique Lifting Requirements. Stennis had not established critical lift policies,
as required by NSS/GO, to better define and identify its Center-unique lifting operations.
Therefore, contractors were not performing critical lifts in the safest possible manner.
Stennis’ 2000 aerial manlift mishap investigation team also concluded that the NSS/GO
critical lift definition did not address all items that the team deemed critical, such as items
valued at more than $25,000 or lifts performed above critical infrastructure. We agree
that Stennis needs to broaden the generic Agencywide definition of critical lift by
updating SPG 8715.1 to specifically address critical lifting operations that are unique to
the Center.

Stennis’ Surveillance of Lifting Operations. Consistent with the Agency's overall
safety policy, Stennis transitioned from oversight to insight22 as a means to ensure the
safety of NASA's programs. As a result, Stennis S&MA officials performed fewer
mandatory inspections and limited surveillance to high-risk safety areas. For example,
Defense Contract Management Agency (DCMA)23 officials informed us that Stennis


20
   NSS/GO-1740.9B requires that new LDE and modified/altered/extensively repaired LDE be load tested
prior to first use with a dummy load that exceeds the rated capacity of the crane by specified percentages.
The NSS/GO also requires periodic rated load tests using a dummy load equal to the LDE’s rated capacity.
21
   NSS/GO-1740.9B and SPG 8715.1 require that ratings for synthetic rope slings be reduced by 50 percent
of the manufacturer’s load rating and permanently marked with the reduced rating based on load test
results.
22
   Insight is a surveillance mode requiring only the monitoring of customer-identified metrics and
contracted milestones. Insight is a continuum that can range from low intensity, such as reviewing
quarterly reports, to high intensity, such as performing surveys and reviews.
23
   Stennis delegated safety surveillance for the Lockheed-Martin, MSS, and Boeing contracts to the
DCMA.


                                                    6
removed the mandatory inspection requirements for Boeing's engine lifts, thus
eliminating DCMA oversight of lifting operations under the Boeing contract.
Mishap investigations, independent assessments such as the NACB crane inspection, and
functional reviews like the NASA Headquarters S&MA Office's process verification
reviews, are key sources of data for establishing a method of insight. Although Stennis
received various reports from these sources that identified serious LDE deficiencies,
Center safety officials did not increase the risk or the level of surveillance associated with
the Center's lifting operations.

Conclusion on Critical Lift Operations

Although the three Stennis contractors were aware of the NSS/GO requirements, they did
not properly classify and conduct critical lifts in accordance with the NASA standards.
Further, Stennis did not provide adequate safety oversight necessary to identify and
correct the deficiencies in the Center’s critical lift operations. In addition, Stennis did not
comply with requirements for hazard analyses, critical lift markings, and a complete LDE
inventory even though multiple reports addressed these deficiencies. As a result, Stennis
and its contractors compromised the safety of personnel, destroyed Government property,
and increased the overall risk of loss or damage to flight hardware, equipment, and
facilities when performing critical lifts.

Recommendations, Management’s Response, and Evaluation of
Response

The Director, John C. Stennis Space Center, should:

     1. Direct all Stennis contractors to conduct critical lifts in accordance with
NSS/GO-1740.9B and SPG 8715.1.

Management Response. Concur. All contractors shall be directed to conduct critical
lifts in accordance with NSS/GO 1740.9 and the Stennis LDE Management Plan.

Evaluation of Management's Response. Management’s planned action is responsive to
the recommendation. However, we ask that Stennis provide additional details describing
how it will direct the contractors to perform critical lifts in accordance with Agency and
Center standards and to provide planned completion dates. The recommendation is
resolved, but will remain undispositioned and open for reporting purposes until corrective
actions are completed.

       2. Direct the Manager, Safety and Mission Assurance and the LDE Program
Manager to perform hazard analyses, mark cranes, and maintain an LDE inventory
as required by NSS/GO-1740.9B and SPG 8715.1.

Management’s Response. Partially Concur. Stennis will require hazard analyses for
new LDE and for procurement of new cranes. Contracts for new equipment will require



                                              7
that suppliers provide hazard analyses. Hazard analyses are primarily utilized in the
design phase. Because Stennis has adequate historical data on its existing critical lift
cranes, the most appropriate and value-added approach for those cranes is to perform risk
evaluations in lieu of hazard analyses. The LDE Management Plan requires capacity
markings for all cranes and conspicuous markings for all critical lift cranes. A Stennis
work order will be prepared to ensure all cranes are marked as required. An inventory of
all lifting devices is currently maintained in the Facility Operations Support Contractor
(FOSC) Computerized Maintenance Management System (CMMS). Although an
inventory of slings is not required, all contractors have been tasked to maintain an
inventory of their rigging gear.

Evaluation of Management's Response. Management’s planned actions are
conditionally responsive to the recommendation. However, Stennis did not address
obtaining waivers from the hazard analyses requirement for the existing cranes. A
waiver may be authorized when it is adequately justified and approved at the appropriate
management level. Stennis informed us that it plans to request waivers for the existing
equipment requiring hazard analyses and that the Center Director would be the approving
authority for those waivers. If the Center plans to obtain properly approved waivers, then
management’s response would meet the intent of the recommendation. As for
recommendation 1, we ask management to provide additional details describing how
critical lift cranes will be marked and the planned completion date for marking all cranes.
Stennis should also needs provide additional details describing how the contractors will
maintain the rigging equipment inventory, including a planned completion date for the
inventory. The recommendation is resolved, but will remain undispositioned and open
for reporting purposes until corrective actions are completed.

       3. Revise SPG 8715.1 to identify Stennis-unique critical lift requirements.

Management Response. Concur. The Stennis LDE Management Plan has been
modified to define unique, programmatic critical lifts. Upon final approval, the plan will
replace the current chapter on LDE in SPG 8715.1.

Evaluation of Management's Response. Management’s planned action is responsive to
the recommendation. However, we ask that Stennis provide its definition of unique,
programmatic critical lifts and the planned completion date for approval of the Center’s
LDE Management Plan and its incorporation into SPG 8715.1. The recommendation is
resolved, but will remain undispositioned and open for reporting purposes until corrective
actions are completed.

       4. Increase Government surveillance of critical lifting operations to ensure
they comply with the requirements of NSS/GO-1740.9B and SPG 8715.1.

Management Response. Concur. The Stennis S&MA office has been tasked to prepare
a surveillance plan that will ensure compliance with all requirements of NSS/GO 1740.9
and the Stennis LDE Management Plan. The surveillance plan will address training and



                                             8
certification of operators, maintenance of equipment, procurement of new equipment, and
surveillance of lifting operations.

Evaluation of Management's Response. Management’s planned action is responsive to
the recommendation. We ssk that Stennis provide a planned completion date for
implementing the surveillance plan. The recommendation is resolved, but will remain
undispositioned and open for reporting purposes until corrective actions are completed.




                                           9
Finding B. Training and Certifying Operators and Riggers

MSS, Boeing, and Lockheed-Martin did not train and certify crane operators and riggers
in accordance with NASA and Stennis standards. Noncompliance with Agency
requirements occurred because (1) MSS did not properly administer a Center-wide
personnel training and certification program, and (2) Stennis did not provide adequate
surveillance or correct training and certification deficiencies previously reported.
Consequently, the three contractors routinely performed lifts without properly trained and
certified operators and riggers. The lack of adequate training contributed to two major
mishaps costing NASA more than $550,000.

Training and Certification Requirements

NASA Requirements. NSS/GO-1740.9B requires NASA Centers to establish training,
testing, and licensing programs for crane operators and riggers. Additionally, critical lift
operators must demonstrate proficiency for initial certification, and their licenses must
identify each crane they are authorized to operate.

Stennis Requirements. SPG 8715.1, Section I.1.4, "Safety and Health Training,
Education and Certification," requires certification of all Government and contractor
personnel who perform hazardous and/or critical operations. Personnel must have the
knowledge, skill, judgment, and physical ability to perform in a safe, qualified manner.
Requirements for certified personnel24 include (1) physical examinations, (2) on-the-job
and classroom safety training, and (3) written and operational qualification testing. MSS
is responsible for training and certifying all LDE operators.

Contractor Compliance with Training and Certification Requirements

We reviewed training and certification records for MSS, Boeing, and Lockheed-Martin
crane operators and riggers and determined they did not comply with Agency and
contractor certification requirements.

MSS Operator Qualifications. Consistent with NASA standards, MSS Safety and
Health Requirement 007, "Crane Operator Proficiency and Rigging and Inspection
Proficiency," requires that operators be issued certificates that identify the cranes the
operators are qualified to operate. However, none of 13 MSS operators had crane-
specific certifications. Rather, operators were certified for crane categories such as




24
  MSS also established requirements for its crane operators. The MSS Safety Office Desk Guide, number
18-35-005, "Employee Certification," identifies special skills and/or critical operations for which personnel
must be certified. The Guide requires personnel performing lifting, rigging, derrick, and/or man-lift
operations to be trained and certified.


                                                     10
mobile or overhead cranes.25 In addition, MSS did not require operators to demonstrate
proficiency on specific critical lift cranes. The operators, therefore, did not meet Agency
or internal certification requirements.

Only three of the nine MSS employees who performed crane inspections were certified
crane operators. Inspectors must operate a crane to perform a proper inspection and,
therefore, must be operator certified. We observed two of the six noncertified inspectors
operating cranes while performing crane maintenance and inspections. NASA, Stennis,
and MSS safety standards clearly state that only certified personnel are authorized to
operate cranes.

MSS Training and Examination. The MSS Safety Office developed and conducted
general classroom training for mobile and overhead crane operators; however, the
training was not crane-specific. MSS also did not provide on-the-job training.

MSS requires operators to pass a written examination upon completion of training. We
attended a course and observed operators using course materials to complete the
examination. Although some materials such as charts for calculating load limits at
various angles were needed to answer some questions, operators should have answered
other questions based on knowledge and experience. Allowing participants to use
handout materials defeated the purpose of the test, which was to determine whether
operators had the knowledge and skill to safely operate a crane.

We reviewed eight tests taken by certified operators. Although the MSS instructor did
not grade the tests, he passed each operator. We subsequently graded the tests and found
that four operators failed by scoring less than the minimum required passing score of 85
percent.

Crane operators also had to complete performance tests. Similar to the classroom
training, MSS conducted overhead crane performance tests using only two cranes rather
than the specific crane the operator would operate.

Boeing Operator and Rigger Qualifications. Boeing operators and riggers did not
comply with Agency certification requirements. Boeing trained and certified its
operators in accordance with a Rocketdyne-Stennis Safety Manual,26 dated July 1998.
The manual required operators to train, witness and practice lifts, and pass a qualification
test. Boeing did not require operators to pass physical examinations prior to certification
as mandated by NASA.

Boeing had 96 overhead crane operators and riggers; however, none were certified on
specific cranes. Further, although 74 of the 96 operators were certified as meeting
25
   In May 2000, the Stennis LDE program manager reported that basic operator training did not comply
with industry standards because certifications were general category rather than crane-specific.
26
   In 1996 Boeing acquired Rocketdyne (previously a Division of Rockwell International Corporation).
Boeing has an updated training program in draft and established a new Web-based examination for
operators in September 1999.


                                                  11
Boeing requirements, 20 did not have physical examinations. Boeing considered the
remaining 22 operators to be qualified but not certified.

1999 Lifting Mishap. On June 23, 1999, a mishap27 occurred during a Boeing lift of a
commercial engine using the main 200-ton derrick.28 Support personnel noticed
vibration and noise from the derrick and evacuated the area before the roller bracket,
shaft, and debris fell to the ground. The mishap resulted in more than $350,000 in
damages.

In September 1999, the Stennis mishap investigation team reported that inadequate
training and a lack of experience caused the lifting mishap. Specifically, the operators
and riggers had only about 2 hours of on-the-job training and had performed only one
critical lift under qualified operator supervision. The lift's draw-works observer29
received only 1 hour of on-the-job training. After the mishap, Stennis assigned all
derrick operations to Lockheed-Martin.

Lockheed-Martin Operator and Rigger Qualifications. Like MSS and Boeing,
Lockheed-Martin had its own certification program. Lockheed-Martin's Personnel
Certification Plan requires personnel performing critical tasks or hazardous operations to
have physical examinations, on-the-job training, and certifications. Operators and riggers
are recertified annually to those requirements.

Lockheed-Martin had a total of three derrick operators, 40 crane operators, and 14
riggers. We reviewed 15 derrick and crane operator certifications. All of the operators
had completed physical examinations, safety overviews, and proficiency tests; however,
none had crane-specific certifications as required by NASA.

2000 Lifting Mishap. As described in Finding A, on November 5, 2000, a man-lift fell
about 80 feet from the B-Test Stand main derrick because Lockheed-Martin used
improper rigging to perform the lift. The mishap resulted in a destroyed man-lift,
damage to the stand, and incidental expenses totaling more than $200,000.

Lockheed-Martin had to recertify its riggers because of training and skill deficiencies
identified in the 2000 mishap investigation team's report. For the second time in 2 years,
a mishap investigation team cited lack of adequate training as the major cause of a lifting
mishap at Stennis.30 The investigation team determined that Lockheed-Martin riggers did
not possess basic rigging skills31 because training and testing were inadequate.
Specifically, rigger training consisted only of video examples of rigging equipment rather

27
   The mishap occurred when the main derrick’s hook traveled upward until the lower sheave block
contacted the upper-fixed sheave block. The main hoist pulled the two blocks together and damaged the
upper block and main hoist cable and caused a roller bracket and shaft assembly to fall to the test stand.
28
   At Stennis, a derrick is a large fixed crane mounted near the top of the test stands.
29
   The draw-works observer ensures proper operation of equipment that powers the hoisting mechanism.
30
   Both the 1999 and 2000 mishap reports cited inadequate training as the main cause for the incidents.
31
   The team reported that riggers did not understand proper sling usage or how to determine proper sling
size.


                                                     12
than detailed rigging instruction. Further, the written test was primarily true/false and did
not provide a good evaluation of rigging knowledge. Lockheed-Martin suspended rigger
certifications in November 2000 and reactivated them in February 2001 when employees
completed 16 hours of classroom and hands-on training.32

Center-wide Personnel Certification Program

The lack of a Center-wide personnel certification program has contributed to the lack of
compliance with the Agency's LDE requirements. As part of its contract for Stennis'
facility operating services, MSS is responsible for developing a comprehensive training
program for Stennis and its contractor crane operators and riggers. MSS did not
administer a program for all three contractors (MSS, Boeing, and Lockheed-Martin)
operating cranes at Stennis. Rather, each of the three managed its own training program.
A Center-wide training and certification program would provide consistency and
compliance with NASA and Stennis certification requirements.

Stennis Reliance on Contractor Mishap Investigation Board and Implementation of
Corrective Actions

Stennis relied too heavily on contractor oversight of crane operations. For example,
Stennis improperly relied on contractors with potential conflicts to perform the 1999
mishap investigation. NASA Policy Directive (NPD) 8621.1G, "NASA Mishap
Reporting and Investigating Policy," provides that Center Directors will appoint and
approve mishap investigation officials when damages or losses are from $250,000 to
$1 million. Mishap Investigation Boards must be NASA sponsored and consist of
individuals with expertise in the area with no vested interest in the outcome. However, a
NASA project manager tasked Lockheed-Martin to assemble a team33 to investigate the
mishap. Other Stennis contractor employees also served on the board. Even though
Boeing was operating the derrick when the mishap occurred, it had representatives on the
board. There was no evidence the Center Director approved the investigation team or
received a copy of its final report. Our review of the 2000 man-lift mishap showed that
the Center Director complied with the NPD by appointing and approving the appropriate
investigation officials.

Finally, Stennis did not implement some of the board’s recommendations. For example,
the board recommended comprehensive training for the riggers. However, Stennis did
not provide rigger training until February 2001, or after the second mishap occurred in
2000. Stennis may have avoided the 2000 mishap if it had implemented the rigger
training promptly after the board's recommendation in 1999. Tracking and resolving
training and certification recommendations made by both internal and external
organizations will further help ensure that lifting operations are conducted in as safe a
manner as possible, and by properly qualified personnel only.

32
  Stennis hired an independent contractor to conduct two 16-hour rigging courses.
33
  The team consisted of NASA, Lockheed-Martin, Johnson Controls World Services, and Boeing
representatives. The three NASA representatives on the team functioned only as advisors.


                                                13
Conclusion on Training and Certifying Operators and Riggers

Properly trained and certified crane operators and riggers are the single most important
factor in ensuring safe lifting operations. Training deficiencies were the main cause of
the two mishaps costing NASA more than $550,000; however, the lack of training and
certification remains a significant weakness. Increased Government surveillance of
contractor compliance with the training and certification requirements of NSS/GO-
1740.9B and SPG 8715.1 will help ensure that only properly trained and certified
operators perform lifts at Stennis. Until Stennis ensures its operators and riggers are
qualified and properly certified, the Center faces risk of additional mishaps, personnel
injury or death, and loss or damage to equipment and facilities essential to NASA.

Recommendations, Management’s Response, and Evaluation of
Response

The Director, John C. Stennis Space Center, should:

        5. Direct MSS to establish and maintain a comprehensive training and
certification program for all operators and riggers at Stennis and to ensure that
certifications are in compliance with the requirements of NSS/GO-1740.9B and SPG
8715.1.

Management’s Response. Partially concur. Stennis is establishing a comprehensive
training and certification program for all operators and riggers, which will comply with
NSS/GO-1740.9 and the Stennis LDE Management Plan. Overall responsibility may be
assigned to an organization other than MSS.

Evaluation of Management's Response. Management’s planned actions are responsive
to the recommendation. We ask Stennis to provide additional details describing how the
training and certification program will be managed as well as a planned completion date
for establishing the responsible organization. The recommendation is resolved, but will
remain undispositioned and open for reporting purposes until corrective actions are
completed.

       6. Increase Government surveillance of contractor compliance with training
and certification requirements to ensure compliance with NSS/GO-1740.9B and
SPG 8715.1.

Management’s Response. Concur. See the response to Recommendation 4.

Evaluation of Management's Response. Management’s planned action is responsive to
the recommendation. As for recommendation 4, we ask that management provide a
planned completion date for implementing the surveillance plan. The recommendation is




                                            14
resolved, but will remain undispositioned and open for reporting purposes until corrective
actions are completed

       7. Direct the Manager, Safety and Mission Assurance, to track and resolve
training and certification recommendations made by both external and internal
reviews such as investigation boards, process verification reviews, or independent
assessments.

Management’s Response. Concur. All training and certification recommendations
from external and internal reviews will be addressed in the comprehensive training plan
identified in Recommendation 5.

Evaluation of Management's Response. Management’s planned action is responsive to
the recommendation. As for recommendation 5, we ask management to provide
additional details describing how the training and certification program will be managed
and to provide a planned completion date for establishing the responsible organization.
The recommendation is resolved, but will remain undispositioned and open for reporting
purposes until corrective actions are completed.




                                           15
Finding C. Crane Operation Safety

LDE operators routinely used cranes and derricks with safety deficiencies. Cranes were
unsafe because contractor personnel did not follow established procedures for recording,
reporting, and correcting crane and derrick deficiencies and disregarded previously
recommended corrective actions for reporting and correcting crane deficiencies. Also,
the Government lacked oversight of crane operations. As a result, operators did not have
sufficient information to assess the safety and reliability of cranes prior to operation and,
in some cases, conducted operations with unsafe equipment.

Requirements for Safety Inspections and Corrective Maintenance

NSS/GO-1740.9B and SPG 8715.1 require a documentation process for crane problems
and deficiencies. Contractor crane operators must perform daily equipment inspections
and review previously recorded deficiencies to assess their impact on planned lifting
activities. Stennis has established procedures for meeting this requirement by using
crane logbooks34 that are to be maintained in the operator’s area of each crane. In
addition, contractor crane operators must report deficiencies to their supervisor and
obtain approval to continue operations. MSS is responsible for correcting hazardous
conditions prior to further use of the equipment.

Cranes with Safety Deficiencies

Our review of crane logbooks showed that operators continued to use cranes and derricks
with known safety deficiencies.

Contractor Logbooks. Boeing and Lockheed-Martin had no logbooks for overhead
cranes, and MSS stopped maintaining logbooks for mobile cranes in 1999. Lockheed-
Martin derrick operators maintained logbooks, but did not consistently record required
data, such as the specific lift description, the device used, or corrective actions.
Additionally, when MSS mobile crane operators maintained logbooks, they routinely
recorded entries such as "same as above" or "same as last entry." Therefore, it was
difficult for an operator to determine existing problems with a particular crane or derrick.
For example, in September 1999, an operator recorded “same as above” for two entries
related to a wire rope problem recorded in August 1999. However, MSS had replaced the
wire rope on August 25, 1999 (prior to the September entries). Therefore, we questioned
the adequacy of the pre-operational inspections of the crane's wire rope. Examples of
problems we noted with operator logbooks are shown in Table 1.




34
     Logbooks are used to record the results of daily operator inspections.


                                                       16
                                         Table 1.
                        Problems Noted in Crane Operator Logbooks




                                                Noted “Same as




                                                                   Fixed Promptly


                                                                                    With Problems


                                                                                                    No Evidence of
                               Job Not Listed




                                                                                                    Continue Lifts




                                                                                                                                     Recorded Lift
                                                                   Problems Not




                                                                                                                     Logbook Not


                                                                                                                                     Date of Last
                                                                                                    Supervisory
                                                                                                    Approval to
                                                                                    Lifts Made
          Crane Description




                                                Previous




                                                                                                                     Current
                                                Entry”




                                                                                    Noted
          130-93 Mobile        X                    X       X       X            X                                     X           11/19/99
          130-101 Mobile       X                    X       X       X            X                                     X           12/09/99
          130-105 Mobile       X                    Logbook weathered and illegible                                    X           09/22/99
          130-106 Mobile       X                    X       X       X            X                                     X           12/01/99
          A-1 Derrick         N/A                  N/A    N/A      N/A         N/A                                    N/A          06/07/00
          A-2 Derrick         N/A                  N/A      X      N/A         N/A                                    N/A          05/19/00
          L92 B1/B2 Derrick N/A                    N/A    N/A      N/A         N/A                                    N/A          12/05/00
          L91 B1/B2 Derrick N/A                    N/A      X       X            X                                    N/A          12/19/00
          L5/L6 Overhead       X                   N/A    N/A      N/A         N/A                                     X           03/16/00
          L10/L11 Overhead N/A                     N/A    N/A      N/A         N/A                                     X           04/20/99
          N/A – Not Applicable

Some recorded problems were recurring, long-standing conditions,35 particularly on the
Center's mobile cranes. Table 2 lists examples of long-standing problems and associated
operator comments from mobile crane logbooks.

                                    Table 2.
     Recurring, Long-Standing Problems Recorded by Mobile Crane Operators

 Crane         Equipment Problem                                                                     Operator Remarks Recorded
                                                            Period Noted
Number        Recorded in Logbook                                                                         Throughout Logbook
130-093      Outrigger(s) Leaking                                                              “No action taken” “Leaks down bad” “Still
                                                                 7/97–11/99
             Down                                                                              leaks after 6 months”
                                                                                               “Motor leaks oil bad” “No action taken”
130-093      Hydraulic Fluid/Oil Leaks                           7/97–11/99                    “Oil leaks everywhere” “Needs help”
                                                                                               “Very unsafe-turned in number of times”
130-093      Cable Too Short                                     7/97-7/99                     “Cable too short to do some jobs”
130-093      Need Boom Angle                                                                   “Boom indicator needs numbers” “Needs
                                                                 7/97-11/99
             Indicator                                                                         new one”
130-101      Hydraulic Fluid/Oil Leaks                           7/97-7/99                     “Oil leaks bad”
                                                                                               “Down to wrap and a half and smashed
                                                                                               spot in cable” “Need new cable bad”
130-106      Cable Bad and Too Short                             8/98-4/99
                                                                                               “Need another 50-100 feet of cable” “Need
                                                                                               cables main and jib. Has been turned in”
130-106      Cable Bad                                           8/99-12/99                    “Bad Spot in Cable”
             Brake Needs Adjusted –
130-106                                                          12/98-2/99                    “All this and more has been turned in”
             Whip Line Riding Up




35
  Operators noted many problems under the previous facilities operations contractor; however, delays in
crane repairs continued to be a problem after Stennis awarded the new contract to MSS in August 1999.


                                                                            17
Crane Conditions for Lifts. Operators continued lifting operations on three mobile
cranes when the wire rope was too short. For example, operators reported the rope was
down to a wrap-and-a-half36 on critical lift crane number 130-10637 as early as August
1998; however, crane operations continued until the facilities operations contractor
replaced the wire rope in April 1999. In August 1999, operators again reported a
problem with the wire rope on crane number 103-106, and, as before, continued using the
crane until maintenance replaced the rope in May 2000. During both periods between
reporting of the wire rope problems and actual wire rope replacement, operators
performed numerous lifts, including lifts of rocket engines and personnel. The continued
use of cranes with insufficient rope clearly violated lifting standards and could have
resulted in loss of critical flight hardware or harm to personnel.

Procedures for Reporting Deficiencies

Derrick operators did not follow Stennis procedures for recording or notifying their
supervisors of problems encountered on the derricks. An operator informed us that
Lockheed-Martin orally communicated problems to MSS maintenance for either
resolution or approval to continue operations. The MSS maintenance supervisor
confirmed that deficiencies were sometimes reported orally. Occasionally, operators
documented that either a supervisor or MSS representative was notified and approved
continued operations. However, we found no evidence that supervisors, maintenance
crews, or safety personnel (Government or contractor) reviewed the logbooks. Review of
the logbooks by these personnel would have detected that (1) operators did not follow
procedures to identify, document, and report problems prior to lifting operations, (2)
MSS did not resolve documented deficiencies promptly, and (3) cranes were unsafe to
operate.

Implementing Corrective Actions

The 1999 mishap report identified a lack of procedures for recording and tracking
deficiencies identified by operators. The report recommended replacing the existing
Derrick Operations Logbook (a generic ledger) with a Derrick Operations Record to track
maintenance, deficiencies, corrective actions, derrick status, and other required logbook
data. As of March 2001, Stennis had not implemented the recommendation. Therefore,
we could not determine whether MSS had corrected problems recorded or reported by the
derrick operators.

In May 2000, the NACB found crane deficiencies throughout the Center and
recommended that Stennis incorporate a detailed inspection program to assure crane
operational readiness, placing special emphasis on wire rope conditions. MSS corrected
many of the NACB reported deficiencies; however, several of the deficiencies were long-

36
   The NSS/GO and SPG 8715.1 preclude operators from using cranes with less than two full wraps of rope
on the hoist drum.
37
   Mobile crane 130-106 was classified for critical lifts; however, MSS used other mobile cranes not
classified for critical lifts to perform lifts that met NSS/GO critical lift requirements.


                                                  18
standing. MSS had documented procedures for performing crane inspections and
specific procedures for wire rope inspections which MSS did not always follow. In our
opinion, MSS should have identified, reported, and corrected the deficiencies prior to the
NACB report.

Conclusion on Crane Operation Safety

Operators continued to perform lifts when cranes were unsafe to operate. Because MSS
did not record the results of inspections and maintenance in crane logbooks, operators did
not have sufficient information to assess cranes for lift safety and reliability. Available
logbooks showed that many cranes had known deficiencies, some for prolonged periods.
Although performing pre-operational safety inspections and maintaining logbooks is key
to ensuring safe operation of cranes and associated equipment, LDE operators did not
perform those tasks. Further, had Stennis provided adequate safety oversight of crane
operations, many of the problems identified by the 1999 mishap investigation team, the
NACB, and this audit could have been avoided.

Recommendations, Management’s Response, and Evaluation of
Response

The Director, John C. Stennis Space Center, should:

       8. Direct contractor personnel, including operators, maintenance and
inspection crews, and supervisors, to maintain logbooks for all cranes as required
by NSS/GO-1740.9B and SPG 8715.1.

Management’s Response. Partially Concur. The Stennis LDE Management Plan has
incorporated a requirement for operators’ daily inspection checklists, in lieu of a logbook,
for all cranes. The checklists will be maintained until all open corrective actions are
closed. If no discrepancies are noted, the checklists will be deleted after 30 days.
Permanent records regarding LDE corrective maintenance will be maintained in the
FOSC CMMS system.

Evaluation of Management's Response. Management’s planned actions are responsive
to the recommendation. We ask Stennis to provide a planned completion date for
implementing the daily inspection checklist and describe how it will monitor the
checklist for completion of corrective actions. The recommendation is resolved, but will
remain undispositioned and open for reporting purposes until corrective actions are
completed.

       9. Implement promptly the previously recommended corrective actions for
reporting and correcting crane and derrick deficiencies.

Management’s Response. Concur. The reporting and correcting of crane and derrick
deficiencies will be tracked by means of the checklists described in recommendation 8.



                                            19
Permanent records regarding LDE corrective maintenance will be maintained in the
FOSC CMMS system.

Evaluation of Management's Response. Management’s planned actions are
conditionally responsive to the recommendation. However, Stennis did not state how
previously recommended corrective actions will be addressed on the operators’ daily
checklists. If management plans to incorporate previously recommended corrective
actions on the initial daily operator checklist and complete the appropriate maintenance,
then management’s actions would meet the intent of the recommendation. In addition,
Stennis should provide us a planned completion date for implementing the process of
preparing operator checklists. The recommendation is resolved, but will remain
undispositioned and open for reporting purposes until corrective actions are completed.

      10. Prohibit the use of cranes with known hazardous deficiencies as required
by NSS/GO-1740.9B and SPG 8715.1.

Management’s Response. Concur. Contractors shall be directed to tag out cranes with
known hazardous deficiencies.

Evaluation of Management's Response. Management’s planned action is responsive to
the recommendation. We ask that Stennis provide additional details describing how it
will direct contractors to tag out cranes when necessary and to provide a planned
completion date. The recommendation is resolved, but will remain undispositioned and
open for reporting purposes until corrective actions are completed.

       11. Increase Government surveillance of contractor compliance with crane
operation safety requirements and supporting documentation in accordance with
the requirements of NSS/GO-1740.9B and SPG 8715.1.

Management’s Response. Concur. See response to Recommendation 4.

Evaluation of Management's Response. Management’s planned action is responsive to
the recommendation. As for recommendation 4, management should provide us a
planned completion date for implementing the surveillance plan. The recommendation is
resolved, but will remain undispositioned and open for reporting purposes until corrective
actions are completed.




                                            20
Finding D. Preventive Maintenance for Cranes

MSS did not perform adequate preventive maintenance (PM)38 on cranes located at
Stennis. Specifically, MSS did not schedule, perform, or document PM as required by
Agency standards. PM deficiencies occurred because (1) MSS experienced problems
with its computerized maintenance system and (2) neither Stennis nor MSS provided
adequate oversight or implemented recommended corrective actions for maintenance
deficiencies. As a result, contractors performed lifts with some cranes that were unsafe
to operate.

Requirements for Crane Preventive Maintenance Program

NASA Requirements. NSS/GO-1740.9B and SPG 8715.1 require that the Centers
establish PM programs based on manufacturers’ recommendations and/or experience.
PM programs should include procedures for scheduling periodic maintenance and
making needed adjustments, replacements, and repairs. In addition, the Centers must
prepare maintenance records and document unsafe test and inspection discrepancies.

Stennis Requirements. Stennis Operating Instruction (OI) 40-01-52, "Guidelines for
Process Control," requires MSS to plan and schedule maintenance using MAXIMO.39
Stennis OI 40-01-015, "Administration of the Preventive Maintenance Program," requires
MSS to develop and update PM schedules, maintain the MAXIMO database, generate
reports, and develop and revise maintenance instructions. Stennis OI 40-01-001,
"Operating Instruction for Issuance, Use and Completion of the Work Order Document
within the Facilities Systems Department," provides guidance for completing work orders
for PM.

Compliance with Crane PM Requirements

The MSS program for PM was inadequate. Our review of PM work orders and
observations of maintenance activities showed that MSS did not schedule, perform, or
document PM activities for cranes in accordance with Agency standards.

Scheduling and Performing PM. MSS did not schedule or perform PM as required.
Specifically, MSS deferred PM for 15 of 64 work orders we reviewed, thus negating the
purpose of routine maintenance. For example, for the Grove 25-ton mobile crane, we
found that during an 8-month period, October 1999 through May 2000, MSS issued one
work order for monthly maintenance, two work orders for quarterly maintenance, and
one work order for annual maintenance. MSS completed the scheduled PM for two of
the four work orders on the same day and then needlessly completed the PM for the


38
   The MSS contract defines preventive maintenance as the planned, scheduled, periodic inspection,
adjustment, cleaning, and lubrication of equipment and systems.
39
   MAXIMO is a computerized maintenance management system used to track and report all PM for
Stennis structures, facilities, utilities, systems, and Government property.


                                                   21
remaining two work orders just 6 days later. Table 3 shows the various PM work orders
scheduled and the actual maintenance performed.

                                    Table 3.
           PM Scheduled and Performed on the Grove 25-ton Mobile Crane
                      From October 1999 Through May 2000

                            Work
     Work                                                               Preventive
                PM        Order Issue
     Order                               Work Order Comment            Maintenance
               Cycle         Date
    Number                                      (D)                   Completion Date
                (B)        (C-- See
      (A)                                                                  (E)
                          Column E)
                                        Deferred to work order
                                                                   Completed on work
   6905       Quarterly    10/17/99     11275. Crane used for
                                                                   order 11275 on 5/28/00
                                        Shuttle support.
   11275      Quarterly     1/16/00     None                       Completed 5/28/00
                                        Hydraulic filter and oil
   21642      Annual        5/5/00                                 Completed 5/22/00
                                        changed 3 weeks prior.
                                        Deferred to Work Order
   25014      Monthly       5/18/00                                Completed 5/22/00
                                        21642.



From October 1999 through May 2000, MSS should have issued eight PM work orders
for the Grove 25-ton crane. According to the maintenance requirements for the Grove
crane, MSS should have scheduled and performed monthly, quarterly, semiannual, and/or
annual PM each year. Only one type of maintenance is required each month, and MSS
should not schedule or perform quarterly and annual PM in the same month. As shown
in Table 3, from October 1999 through May 2000, MSS did not schedule or perform the
required monthly or semiannual PM. Finally, after performing no maintenance for
7 months, MSS scheduled and performed three types of maintenance (monthly, quarterly,
and annual) in May 2000 when only annual PM was necessary.

We found similar problems for two other mobile cranes. Specifically, MSS deferred
scheduled monthly PM for an 8.5-ton and a 75-ton crane from November 1999 until
March 2000. Consequently, MSS did not service those cranes for 4 months.

We also questioned whether MSS actually performed some PM. For example, work
order 21642 (shown in Table 3) showed that MSS changed the mobile crane's hydraulic
oil and filter 3 weeks prior to completing work order 21642. However, no work orders
showed that MSS changed the crane’s oil and filter during either April or May 2000.

MSS also did not document the use of consumable materials such as oil, hydraulic fluid,
filters, and lubricants when performing PM. Of the 64 work orders we reviewed from
August 1999 through September 2000, none showed requests for or use of materials.
Based on MSS’ accounting data, we determined that only one PM work order showed
associated material costs of $22.33. The absence of materials costs for routine
maintenance indicated that MSS might not have performed some required PM tasks.



                                               22
In May 2000, the NACB reported PM deficiencies to Stennis. The NACB reported
numerous problems such as leaking seals and inadequate lubrication on critical lift
cranes. MSS had performed maintenance and/or inspections on the same cranes in the
months immediately prior to the NACB inspections. However, MSS work orders did not
reflect similar problems with the same cranes during the same period.

MSS management was aware of inadequacies in its maintenance program. MSS
documented problems with maintenance in its September 30, 2000, Maintenance Plan.40
Specifically, the plan stated that MSS had not (1) provided adequate visibility of
upcoming work requirements or (2) consistently met performance metrics for completing
PM.

PM Observations. Our observations of PM on selected cranes also raised concerns
about the adequacy of the maintenance performed. For example, on October 20, 2000,
we initially planned to observe semiannual maintenance on two overhead cranes (L-19
and L-20). On that day, however, MSS performed PM only on the L-20 crane and stated
that it completed PM on the L-19 crane in September. However, July 12, 2000, was the
last recorded PM for the L-19 crane.

During our October 20, 2000, observation, MSS was unable to perform some required
maintenance tasks such as inspecting the brakes and drive motor on the L-20 crane
because the components were housed inside a sealed compartment. The work order for
the L-20 crane also required changing of the gearbox lubricant. However, the
maintenance crew did not change the gearbox lubricant because the crew’s supervisor
instructed it to change the lubricant annually instead of semiannually.

We also observed many mobile cranes with safety and maintenance deficiencies. Some
of the more significant crane deficiencies included fluid leaks, badly worn tires, and
cracked glass. Figures 3 and 4 show the condition of a mobile crane used almost daily at
Stennis.




40
 MSS prepared a maintenance plan, dated September 30, 2000, in accordance with its contract terms.
According to a cover letter accompanying the plan, it was submitted in response to a pledge by the MSS
Board of Directors to improve its performance on PM and corrective maintenance activities.


                                                   23
Figure-3. Bald tires on a 55-ton mobile crane.          Figure-4. Cracked operator’s cab roof glass
                                                                   on a 55-ton mobile crane.

During the audit, MSS initiated corrective actions such as replacing tires and cleaning up
leaking areas on some cranes.

MSS PM Documentation. MSS did not document PM work orders in accordance with
Stennis OI 40-01-001. A total of 38 (59 percent) of 64 work orders reviewed did not
show the actual labor hours charged or identify the personnel performing the PM tasks.
Twenty-two (34 percent) of the 64 work orders did not show the PM tasks to be
performed. Forty-two (66 percent) of the work orders did not contain evidence of any
type of supervisory review.

MSS Transition to an Upgraded Maintenance Management System

MSS primarily attributed PM scheduling problems to its transition to an upgraded version
of the MAXIMO maintenance management system. When MSS brought the new version
on-line, MAXIMO erratically scheduled required PM. MSS subsequently revised the
PM schedule within MAXIMO to distribute PM more evenly.

Work orders also did not include all required PM tasks because MSS did not import
equipment specification tables41 into the upgraded version of MAXIMO. After MSS
reconstructed the tables, work orders included more of the appropriate PM requirements.
However, the work orders did not include the level of detail as those issued prior to the
MAXIMO upgrade. For example, quarterly PM for a 4.5-ton mobile crane previously
required 41 tasks. The quarterly PM work orders for a 4.5-ton mobile crane in the new
version of MAXIMO contained only seven required tasks.

According to MSS, managing maintenance requirements became more difficult as the
number of cranes increased. To alleviate the problem, MSS developed maintenance



41
   Equipment specification tables contain relevant maintenance data such as minimum wire rope diameters,
fluid specifications, lubrication points, and scheduled maintenance intervals and tasks.


                                                   24
instructions for the various crane categories (bridge, derrick, mobile). However, because
the maintenance instructions were not crane specific, all PM tasks were not applicable to
the cranes in a given category.

Government and Contractor Oversight of the Preventive Maintenance Program

Government Oversight. The DCMA letter of delegation for the MSS contract requires
audit coverage necessary to assure compliance with contractor quality and safety
requirements and mandatory surveillance for repair and testing of safety critical
equipment, including cranes. The DCMA, however, did not adequately provide
surveillance of maintenance and testing. According to monthly status reports, DCMA
representatives performed minimal surveillance of PM. Specifically, reports prepared
from December 1999 through August 2000 identified that only 1 out of 670 DCMA
surveillance observations related to crane maintenance. Based on maintenance
deficiencies noted in the May 2000 NACB and Stennis internal inspection reports, we
would have expected significantly more maintenance observations by the DCMA during
the 9-month period. Due to the DCMA's failure to report PM deficiencies, we question
the adequacy of its surveillance.

MSS Oversight. The MSS Maintenance Plan provides for quality reviews to include
reviewing (1) work orders, (2) required PM compared to actually performed, and (3)
documented discrepancies and findings. However, MSS had not performed any quality
reviews of crane maintenance. Further, the only evidence of MSS safety reviews we
found was for load tests.

Center Implementation of Corrective Actions

Stennis received reports that identified PM deficiencies from the NASA Office of
S&MA, the NACB, and its own staff. The internal Stennis report further addressed MSS
personnel's lack of knowledge of required PM tasks and stated that PM documentation
was incomplete. Despite the many deficiencies identified in each of the reports, the
Stennis S&MA office did not increase its oversight or direct the DCMA to increase its
surveillance of the MSS PM program. Further, the Stennis S&MA office did not require
MSS to address or correct PM deficiencies until 16 cranes were taken out of service in
June 2000.

The Center’s lack of oversight was also demonstrated by its failure to implement
corrective actions from the NASA Lessons Learned Information System. A 1997 entry
in that system reported a mishap caused by a mobile crane’s leaking outrigger. The leak
was attributed to failure to perform scheduled PM. Crane operators continued to record
similar problems in crane logbooks through December 1999. However, because MSS
operators stopped maintaining logbooks in 1999, we could not determine whether similar
problems continued or MSS initiated corrective actions.




                                           25
Conclusions on Preventive Maintenance

The keys to a successful PM program are scheduling and execution. A successful PM
program focuses on cleaning, lubrication, correcting deficiencies, replacing minor
components, and safety. Complete implementation of a PM program will extend
equipment life, reduce repair and replacement costs, and ensure that equipment is safe to
operate. As reflected in the condition of the cranes we observed and the reports we
reviewed, the MSS PM program was clearly inadequate. More important, Stennis used
cranes that were not safe to operate, which increased the risk of loss or harm to personnel
and assets essential to the space propulsion program.

Recommendations, Management’s Response, and Evaluation of
Response

The Director, John C. Stennis Space Center, should:

       12. Direct the MSS to schedule, perform, document, and review PM as
required by NSS/GO-1740.9B, Stennis PM policies and procedures, and the MSS
contract.

Management’s Response. Concur. MSS shall be directed to schedule, perform,
document, and review PM in accordance with the contract requirements, which includes
compliance with NSS/GO-1740.9b and Stennis policies.

Evaluation of Management's Response. Management’s planned action is responsive to
the recommendation. We ask Stennis to provide additional details describing how it will
direct MSS to perform PM tasks and to provide a planned completion date for providing
the direction. The recommendation is resolved, but will remain undispositioned and open
for reporting purposes until corrective actions are completed.

       13. Increase Government surveillance of the MSS PM program for cranes to
ensure compliance with NSS/GO-1740.9B and Stennis PM policies and procedures.

Management’s Response. Concur. See the response to Recommendation 4.
Additionally, NASA’s Maintenance and Operations Branch of the Stennis Center
Operations and Support Directorate monitors the PM program.

Evaluation of Management's Response. Management’s planned actions are responsive
to the recommendation. As for recommendation 4, management should provide us a
planned date for implementing its surveillance plan. The recommendation is resolved,
but will remain undispositioned and open for reporting purposes until corrective actions
are completed.




                                            26
       14. Direct the Manager, Safety and Mission Assurance, to coordinate with
appropriate Center organizations to track and implement corrective actions for
recommendations from various external and internal reviews concerning crane PM
deficiencies.

Management’s Response. Concur. The Manager, Safety and Mission Assurance, will
collect, track, and facilitate closure of all existing issues documented in previous external
and internal reviews.

Evaluation of Management's Response. Management’s planned action is responsive to
the recommendation. However, management should provide us a planned completion
date for closing the recommendations from previous external and internal reviews. The
recommendation is resolved, but will remain undispositioned and open for reporting
purposes until corrective actions are completed.




                                             27
Finding E. Wire Rope Inspections

MSS did not perform wire rope inspections in accordance with NASA standards.
Inadequate inspections occurred because (1) MSS did not follow inspection procedures
and (2) Stennis did not provide adequate surveillance of wire rope conditions. As a
result, contractors used cranes with unsafe rope conditions, increasing the risk of lifting
failures and harm to personnel and/or assets.

Standards for Performing Inspections

NSS/GO-1740.9B requires monthly wire rope inspections with emphasis on deterioration
and damage. Stennis Technical Standard 1787, "Maintenance Instruction, Wire Rope,
Chain, and Link Inspection,” requires that the entire length of wire ropes be inspected for
reductions in diameter, breaks, kinks, or corrosion. In addition, Stennis Standard
Operating Procedure 960, “Inspection and Maintenance of Wire Rope, Slings, and
Hooks," provides that cranes will not be used unless wire ropes have been inspected
within the last 30 days. Finally, SPG 8715.1 requires that the buddy system42 be used for
hazardous operations, including heavy hoisting and personnel lifting.

Scheduling and Performing Wire Rope Inspections

Scheduling and Performing Inspections. MSS did not schedule monthly wire rope
inspections as required. For example, MSS completed two wire rope inspections on a
mobile crane in May and August 2000, but did not perform any inspections in June or
July. Similarly, MSS completed two inspections on another mobile crane in May and
July, and one in June, but did not perform inspections in February or April.

We observed MSS perform wire rope inspections on three cranes. The two inspectors
generally followed NASA standards43 including the recording of required multiple rope
measurements. However, MSS inspectors did not follow the standards on inspections
prior to our observations. Inspectors recorded only one wire rope measurement on each
of four work orders reviewed and did not use the buddy system on three of those work
orders.

We reviewed work orders for 161 wire rope inspections performed from September 1999
through November 2000. MSS did not record multiple wire rope measurements on 150
(93 percent) of the inspections, and only 5 (3 percent) inspections addressed the wire
rope condition. Also, inspectors did not use the buddy system for 120 (75 percent) of the
inspections.

We also identified significant labor variances between inspections by a single employee
and those using the buddy system. Specifically, inspections performed by one employee


42
     The buddy system refers to the use of two or more persons to perform hazardous operations.
43
     MSS inspectors did not disconnect the cranes’ power sources as required by Technical Standard 1787.


                                                     28
required from 30 minutes to 2 hours, while inspections using the buddy system required
from 2 to 6 hours. The labor variances provided further evidence that MSS
inconsistently followed procedures for conducting wire rope inspections.

NACB Inspections. After its May 2000 inspection, the NACB reported wire rope
problems on some critical lift cranes. MSS inspectors had not detected those problems,
thus raising our concerns with the adequacy of MSS inspections. For example, the
NACB found broken wires on a mobile crane (crane number 130-106). MSS inspectors
did not identify any problems with the crane's wire rope during their March and May
2000 inspections. MSS replaced the wire rope on May 23, 2000.

The NACB also reported a kink in the wire rope of a bridge crane (crane number L-56).
MSS performed four inspections prior to the NACB's inspection; however, MSS did not
identify any rope problems. The last MSS inspection occurred on May 22, 2000, after
the NACB inspection; therefore, MSS should have identified the same problems found by
the NACB. MSS replaced the wire rope on June 19, 2000.

Finally, the NACB found wire rope clips installed backwards on a crane at the E-1 Test
Stand. Four MSS inspections performed from February through May 2000 did not
identify problems with the clips. Again, the May MSS inspection results should have
mirrored the NACB's findings. MSS subsequently corrected the rope clip installation.

Government and Contractor Oversight of Wire Rope Inspections

Similar to the lack of oversight on PM, we found no evidence of Government
surveillance by Stennis or DCMA with respect to wire rope inspections. We also found
no evidence of safety oversight by MSS.

Conclusion on Wire Rope Inspections

The NACB report combined with our observations showed that MSS did not perform
adequate wire rope inspections. Although MSS corrected rope deficiencies subsequent to
the NACB report, inspection personnel should have identified and corrected those crane
deficiencies as part of the normal, routine inspection process. Operating cranes with
defective or improperly installed ropes could have resulted in further lifting failures at
Stennis and harm to assets and/or personnel.

Recommendations, Management’s Response, and Evaluation of
Response

The Director, John C. Stennis Space Center should:

       15. Direct MSS to schedule, perform, document, and review wire rope
inspections in accordance with NSS/GO-1740.9B, Stennis policies and procedures,
and the MSS contract.



                                            29
Management’s Response. Concur. Since wire rope inspections are a PM function,
MSS shall be directed to perform this function as described in the response to
Recommendation 12.

Evaluation of Management's Response. Management’s planned action is responsive to
the recommendation. As for recommendation 12, management should provide us
additional details describing how it will direct MSS to perform wire rope inspections and
a planned completion date for providing the direction. The recommendation is resolved,
but will remain undispositioned and open for reporting purposes until corrective actions
are completed.

       16. Increase Government surveillance of wire rope inspections to ensure the
inspections are completed in accordance with applicable NASA standards.

Management’s Response. Concur. See the response to Recommendation 4.

Evaluation of Management's Response. Management’s planned action is responsive to
the recommendation. As for recommendation 4, we ask Stennis to provide us a planned
completion date for implementing its surveillance plan. The recommendation is resolved,
but will remain undispositioned and open for reporting purposes until corrective actions
are completed.




                                           30
              Appendix A. Objectives, Scope, and Methodology

Objectives

The overall objective of the audit was to determine whether Stennis and its contractors
properly managed the Lifting Devices and Equipment (LDE) program. Specifically, we
determined whether:

       •   Stennis safely performed critical lifts,
       •   LDE operators were properly trained and certified,
       •   personnel operated cranes in a safe manner,
       •   Mississippi Space Services (MSS) complied with maintenance requirements,
           and
       •   MSS performed adequate wire rope inspections.

Scope and Methodology

Stennis had 83 cranes and hoists, 23 that were classified as critical lift cranes. Of the 83,
there were 5 mobile cranes, 35 hoists, and 43 fixed (jib, auxiliary derrick, derrick, or
bridge) cranes. To satisfy our objectives, we reviewed available documents and records
for all 5 mobile cranes and 14 of the 44 fixed cranes. We did not review slings, hooks, or
other crane accessories, except to verify the inventory of slings. We verified the
accuracy and completeness of the LDE records and identified one crane that was not
included in the Center's inventory.

We limited our review to the three major contractors (Lockheed-Martin Space
Operations-Stennis Programs (Lockheed Martin), MSS, and The Boeing Company-
Rocketdyne Propulsion and Power (Boeing)) that operate and maintain LDE at Stennis.
We did not include cranes owned or operated by Stennis tenants in our review. We
interviewed Headquarters, Stennis, and contractor Safety and Mission Assurance
(S&MA) officials associated with the operation, maintenance, and/or inspection of LDE.
We also reviewed NASA, Stennis, and contractor standards and guidelines applicable to
the operation, maintenance, and inspection of LDE. We examined (1) previous reports
related to Stennis LDE operations to include Headquarters and Center S&MA reports,
Defense Contract Management Agency (DCMA) contract surveillance reports, and
contractor safety and quality assurance reports, (2) reports for reviews by external
organizations contracted for by the Center, and (3) reports issued in 1999 and 2000 on
mishaps involving cranes.

Audit field work consisted of reviews and observations of the following:

       •   Critical lift procedures and records to determine whether Stennis complied
           with the critical lift requirements of NSS/GO-1740.9B and SPG 8715.1.




                                             31
Appendix A

       •   Lockheed-Martin, MSS, and Boeing training and certification data for
           operators and riggers to determine whether personnel were trained and
           certified in accordance with NASA, Stennis, and contractor requirements.

       •   Crane logbooks for mobile cranes and derricks to identify problems noted by
           operators during daily inspections and to determine the objects lifted during
           operations.

       •   Preventive maintenance and wire rope inspection procedures and a sample of
           work orders documenting work performed from September 1999 through
           October 2000 to determine whether MSS complied with crane maintenance
           and inspection requirements.

       •   Labor, material, and other contract charges related to maintenance and
           inspections to determine costs associated with those activities.

       •   Visual inspections of fixed and mobile cranes to identify safety deficiencies.

Management Controls Reviewed

We reviewed management controls related to the classification and performance of
critical lifts and the training, testing, and certification of crane operators and riggers.
Additionally, we reviewed controls related to documenting and reporting crane
deficiencies, and scheduling, performing, and documenting crane maintenance and
inspections. We also reviewed the safety responsibilities delegated to the DCMA for
surveillance of the Lockheed-Martin, MSS, and Boeing contracts. We identified internal
control weaknesses as identified in the finding sections of the report.

Audit Field Work

We performed field work from October 2000 through June 2001 at Stennis and NASA
Headquarters. We performed the audit in accordance with generally accepted
government auditing standards.




                                            32
        Appendix B. Summary of Process Verification Reviews


       Process Verification Team Safety Concern              1997   1999   2000

Lack of staffing in the Safety and Mission Assurance          X      X      --
(S&MA) office.
Lack of S&MA support at the E Complex and other areas.        --     X      --
The Stennis Safety Manual does not reference NASA             X      --     --
Handbook 1700.1 (V-1B), NASA Safety Standards 1740.11
and 1740.12.
Annual NASA safety inspections of resident agencies and       X      --     --
contractor safety programs are behind schedule.
Stennis does not have a civil service program manager to      X      X      X
ensure configuration management and control of lifting
devices and equipment (LDE). Roles and responsibilities of
LDE manager are not defined.
Stennis LDE policies and procedures are not current.          X      X      X
Stennis LDE inventory is not current.                         X      X      X
Stennis Procedures and Guidelines (SPG) 8715.1, Part I,       X      --     --
LDE, has not been finalized.
Stennis does not have one lead contractor managing its LDE    --     X      --
program.
Stennis Standard 99-016 does not clearly define LDE           --     --     X
configuration management, including record keeping.
SPG 8715.1, Part I, Section 2.18, does not require an LDE     --     --     X
committee chaired by the LDE manager or identify
committee responsibilities.
Some of Stennis’ LDE was not tagged and/or labeled, and       --     --     X
slings were not inventoried or certified.
LDE maintenance records and supporting documentation          --     --     X
were difficult to locate and may not exist.
Stennis did not have a long-term, comprehensive,              --     --     X
sustainable LDE program.




                                         33
     Appendix C. North American Crane Bureau Inspection Results

In May 2000, the North American Crane Bureau (NACB) recommended that to assure
operational readiness, Stennis should establish a detailed maintenance and inspection
program, with special emphasis on wire ropes. The NACB also reported that deficiencies
and safety concerns, such as no capacity markings or warning tags, lack of lubrication,
and rust were prevalent throughout the facility. The following table summarizes the
NACB's findings.

                             Summary of NACB Findings




                                No Load Rate Marking
                                Equipment Wear\Rust




                                No Hand Signal Chart
                                No or Poor Inspection
                                No Operator Manual




                                Loose Debris Present

                                No Fire Extinguisher

                                Mechanical Problem
                                Wire Rope Problem
                                Hydraulic Oil Low
                                No Warning Tag
                                Need Lubricant




                                Poor Clearance




                                No Load Chart
                                Leaking Parts
                                Missing Parts
   Critical Lift Equipment



Gaffrey, 4 Ton Hoist            X    X    --   --   --   --   --   --   --   --   --   --   --   --   --   --
Terex, 75 Ton Mobile Crane      --   --   X    X    X    X    --   --   --   --   --   --   --   --   --   --
Shepard, 25 Ton Crane           X    --   --   X    --   X    X    X    --   --   --   X    --   --   --   --
Reading, 15 Ton Crane           X    X    --   --   --   --   --   --   X    X    X    X    --   --   --   --
Shepard Niles, 25 Ton Crane     --   --   --   X    --   --   --   --   X    --   --   --   --   --   --   --
Stewart Systems, 25 Ton Crane   X    X    --   --   --   --   --   --   --   --   --   --   --   --   --   --
Dixie Crane, 10 Ton Crane       X    X    --   --   --   X    --   --   --   X    --   --   --   --   --   X
P&H, 10 Ton Hoist               X    --   --   X    --   --   --   --   --   --   X    --   --   --   --   X
Robbins & Myers, 3 Ton          X    --   --   --   --   X    --   --   --   --   X    --   --   --   --   X
Monorail
American Hoist Derrick          -- X X X      X -- -- -- -- -- -- X -- -- --
American Hoist, 175 Ton         -- -- X -- -- -- -- -- -- -- -- -- X X X
American Hoist Derrick, 200     -- -- -- X -- -- -- -- -- -- -- -- -- -- -- --
Ton
Yale Hoist, 20 Ton              X    --   --   X    --   --   --   --   --   --   X    --   --   --   --   --
American Hoist, 37.5 Ton        --   --   X    --   --   --   --   --   --   X    --   --   X    --   --   --
Dixie Crane, 5 Ton              X    X    --   X    --   --   --   --   --   --   --   --   --   --   --   X
Terex 8.5 Ton Hydraulic Crane   --   --   --   --   --   --   --   --   --   --   --   --   --   --   --   --
Totals                          9    6    4    8    1    5    1    1    2    3    4    2    3    1    1    4




                                               34
Appendix D. Management’s Response




               35
Appendix D




             36
     Appendix D




37
Appendix D




             38
                       Appendix E. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AI/Associate Deputy Administrator
AA/Chief of Staff
AB/Associate Deputy Administrator for Institutions
B/Acting Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Associate Administrator for Procurement
J/Associate Administrator for Management Systems
JM/Director, Management Assessment Division
L/Acting Associate Administrator for Legislative Affairs
P/Associate Administrator for Public Affairs
R/Associate Administrator for Aerospace Technology
S/Associate Administrator for Space Science
U/Acting Associate Administrator for Biological and Physical Science
X/Director, Office of Security Management and Safeguards
Y/Associate Administrator for Earth Sciences
Z/Acting Associate Administrator for Policy and Plans

NASA Centers

Director, Ames Research Center
Director, Dryden Flight Research Center
Director, Goddard Space Flight Center
Director, John H. Glenn Research Center at Lewis Field
Acting Director, Johnson Space Center
Director, Kennedy Space Center
Chief Counsel, John F. Kennedy Space Center
Director, Langley Research Center
Director, Marshall Space Flight Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget




                                          39
Appendix E

Non-NASA Federal Organizations and Individuals (Cont.)

Managing Director, Acquisition and Sourcing Management Team, General Accounting
 Office
Senior Professional Staff Member, Senate Subcommittee on Science, Technology, and
 Space

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
 Intergovernmental Relations
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Subcommittee on Technology and Procurement Policy
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                          40
                NASA Assistant Inspector General for Audits
                             Reader Survey

The NASA Office of Inspector General has a continuing interest in improving the
usefulness of our reports. We wish to make our reports responsive to our customers’
interests, consistent with our statutory responsibility. Could you help us by completing
our reader survey? For your convenience, the questionnaire can be completed
electronically through our homepage at http://www.hq.nasa.gov/office/oig/hq/audits.html
or can be mailed to the Assistant Inspector General for Audits; NASA Headquarters,
Code W, Washington, DC 20546-0001.

Report Title: Final Report on Audit of the Safety of Lifting Devices and Equipment at
             Stennis Space Center

Report Number:                                Report Date:

Circle the appropriate rating for the following statements.

                                             Strongly                                Strongly
                                              Agree     Agree   Neutral   Disagree   Disagree   N/A
1. The report was clear, readable, and          5         4       3          2           1      N/A

   logically organized.
2. The report was concise and to the            5         4       3          2          1       N/A

   point.
3. We effectively communicated the              5         4       3          2          1       N/A

   audit objectives, scope, and
   methodology.
4. The report contained sufficient              5         4       3          2          1       N/A

   information to support the finding(s)
   in a balanced and objective manner.

Overall, how would you rate the report?

   Excellent                  Fair
   Very Good                  Poor
   Good

If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

        Congressional Staff                     Media
        NASA Employee                           Public Interest
        Private Citizen                         Other:
        Government:           Federal:             State:         Local:


May we contact you about your comments?

Yes:                                        No:
Name:


Telephone: ________________________



Thank you for your cooperation in completing this survey.
Major Contributors to the Report

Kevin J. Carson, Deputy Assistant Inspector General for Audits

Sandra A. Massey, Program Director for Safety and Technology Audits

Oscar E. Lindley, Auditor

Lamar Brickhouse, Auditor

Nancy Cipolla, Report Process Manager
